No. 20-1562

 

In THE
Supreme Court of the United States

Faye STRAIN, as guardian of Thomas Benjamin Pratt,
Petitioner,
v.
Vic REGALADO, in his official capacity; ARMOR
CORRECTIONAL HEALTH SERVICES, INC.; CURTIS
McE roy, D.O.; PATRICIA DEANE, LPN; KaTHy

LOEHR, LPC,
Respondents.

On Petition for a Writ of Certiorari to the
Tenth Circuit Court of Appeals

SUPPLEMENTAL BRIEF IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
340 words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 24, 2021.

 

Wilson-Epes Printing Co., Inc.
